MEMORANDUM FOR:                 RAYMOND J. UHALDE
                                Deputy Assistant Secretary
                                  for Employment and Training


FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit


SUBJECT:                        Audit of Penobscot Job Corps Center
                                Final Audit Report Number 02-01-206-03-370


The attached subject final report is submitted for your resolution action. We request a response to this
report within 60 days.

You are responsible for transmitting a copy of this report to Training and Development Corporation
officials for resolution. However, we are providing a courtesy copy directly to Charles G. Tetro,
President and CEO of Training and Development Corporation.

If you have any questions concerning this report, please contact Richard H. Brooks, Regional Inspector
General for Audit, at (212) 337-2566.


Attachment


cc: Richard Trigg, Office of Job Corps
    Charles G. Tetro, Training and Development Corporation
         AUDIT OF
 PENOBSCOT JOB CORPS CENTER


  CONTRACT NUMBER 1-JC-611-23
JULY 1, 1998 THROUGH JUNE 30, 1999




                   U.S. DEPARTMENT OF LABOR
                   OFFICE OF INSPECTOR GENERAL

                   REPORT NO: 02-01-206-03-370
                   DATE: March 21, 2001
                                                  TABLE OF CONTENTS




ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION:

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDING AND RECOMMENDATIONS

          EXCESS FRINGE BENEFIT ALLOCATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

EXHIBIT

          CONSOLIDATED SCHEDULE OF CENTER EXPENSES
          REPORTED, QUESTIONED, AND OTHER ADJUSTMENTS . . . . . . . . . . . . . . 9

APPENDIX

           TDC RESPONSE TO THE DRAFT AUDIT REPORT . . . . . . . . . . . . . . . . . . . . 10
                  ACRONYMS




DOL    U. S. Department of Labor


ETA    Employment and Training Administration


G&A    General and Administrative


OMB    Office of Management and Budget


PJCC   Penobscot Job Corps Center


PRH    Policy and Requirements Handbook


TDC    Training and Development Corporation




                        -i-
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (DOL), Office of Inspector General, conducted an audit of expenses
claimed by the Training and Development Corporation (TDC) to operate the Penobscot Job Corps
Center (PJCC) under contract number 1-JC-611-23 for the period July 1, 1998 through
June 30, 1999. The audit objective was to determine if the Consolidated Schedule of Center
Expenses was presented fairly in accordance with Federal requirements.

Audit Results

In our opinion, except for questioned costs, the Consolidated Schedule of Center Expenses (Exhibit)
presented fairly, the results of PJCC’s operations in accordance with applicable laws and regulations
for the period July 1, 1998 through June 30, 1999. Overall, expenses claimed by TDC were
reasonable, allocable and allowable. For the audit period, TDC claimed expenses of $6,609,054 for
PJCC, of which we question $67,192 or 1 percent.

       <        We question $61,363 of fringe benefits allocated to PJCC. TDC did not have controls
                in place to reconcile estimated fringe benefits to actual costs and detect errors, such as
                including accrued vacation which is not chargeable to Job Corps. We calculated fringe
                benefits using actual fringe benefits and salaries for the audit period, and as a result,
                question $61,363 of fringe benefits.

       <        We also question $5,829 in applicable general and administration (G&A) expenses due
                to the fringe benefits questioned above.

Recommendations

We recommend that the Assistant Secretary for Employment and Training recover $67,192 of
questioned costs and ensure TDC establishes sufficient controls to:

       <        provide for the consistent application of allocation methodology, and

       <        monitor allocation control accounts to reconcile estimated fringe benefits to actual costs
                and detect allocation errors.

The President and CEO of TDC responded to our draft report on February 27, 2001. He concurred
with our findings and proposed settling the questioned costs as part of the closeout process for the



                                                   -1-
PJCC contract. The response has been incorporated in the report and is also included in its entirety as
an Appendix.




                                                  -2-
                                       INTRODUCTION


                                      Job Corps was established in 1964 and is presently authorized
       BACKGROUND                     under Title I, Subtitle C of the Workforce Investment Act of 1998.
                                      The overall purpose of the program is to provide economically
                                      disadvantaged youths aged 16 to 24 with the opportunity to become
more responsible, employable citizens. With annual funding over
$1 billion, Job Corps is the largest Federal youth employment and training program. Job Corps
provides total support for participants including basic education and vocational classes; dental, medical
and eye care; social skills training; meals; recreational activities; counseling; student leadership activities;
and job placement services.

TDC is a not-for-profit corporation with headquarters in Bucksport, Maine. During the audit period,
TDC primarily operated DOL employment and training programs for adults, youth, dislocated workers,
and migrants and seasonal farmworkers. Under contracts with DOL, TDC operated two Job Corps
centers in Maine which accounted for $13 million (68 percent) of TDC’s $19 million of revenue for the
period.

DOL’s Employment and Training Administration (ETA) awarded contract number 1-JC-611-23 to
TDC to operate PJCC for the period October 1, 1995 through September 30, 2000. The total
contract award was $32,567,512.


                                     The objective was to determine if the Consolidated Schedule of
    AUDIT OBJECTIVE                  Center Operation Expenses reported by TDC for PJCC was
                                     presented fairly in accordance with Federal requirements.


                                   We audited expenses of $6,609,054 claimed under contract number
    AUDIT SCOPE AND                1-JC-611-23 for the period July 1, 1998 through June 30, 1999.
     METHODOLOGY                   We obtained an understanding of TDC’s internal controls through
                                   inquires with appropriate personnel, inspection of relevant
                                   documentation, and observation of operations. The nature and
extent of our testing were based on the risk assessment.

We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices. We used judgmental sampling techniques to test



                                                      -3-
individual account transactions. We sampled $2,224,918 or 34 percent of reported expenses. We did
not audit performance measurements of PJCC.

The audit was performed using criteria we considered relevant in evaluating the reasonableness,
allowability and allocability of claimed expenses. Criteria included Title 20 of the Code of Federal
Regulations, Circular A-122 from the Office of Management and Budget (OMB), and the Job Corps
Policy and Requirements Handbook (PRH). Also, other requirements in the contract were used as
criteria in evaluating the allowability of claimed expenses.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from December 5, 2000 to
January 12, 2001, at PJCC located in Bangor, Maine. We held an exit conference with TDC on
February 15, 2001.




                                                 -4-
Mr. Raymond J. Uhalde
Deputy Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                       ASSISTANT INSPECTOR GENERAL’S REPORT

We audited the accompanying Consolidated Schedule of Center Expenses (Exhibit) for the period
July 1, 1998 through June 30, 1999, under DOL contract number 1-JC-611-23. Expenses claimed
are the responsibility of TDC management. Our responsibility is to express an opinion on the reported
expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported expenses
are free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported expenses. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported expenses.
We believe our audit provides a reasonable basis for our opinion.

The Consolidated Schedule of Center Expenses was prepared in conformity with accounting
practices prescribed by the Job Corps’ Policy and Requirements Handbook, Chapter 9, Financial
Management, which is a comprehensive basis of accounting other than generally accepted accounting
principles. Allowable costs are established by Federal regulations.

Opinion on Financial Statement

As discussed in the Finding and Recommendations section, excessive fringe benefits allocated to PJCC
resulted in questioned costs of $67,192 or 1 percent of reported expenses. ETA is responsible for
resolving these questioned costs. The total effect of ETA’s determination cannot be estimated at this
time.

In our opinion, except for the matter discussed in the preceding paragraph, the Consolidated Schedule
of Center Expenses presents fairly, in all material respects, the results of PJCC’s operations in
accordance with applicable laws and regulations for the period July 1, 1998 through June 30, 1999.



                                                   -5-
Report on Internal Control

In planning and performing our audit, we considered TDC’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on reported
expenses and not to provide assurances on the internal control over financial reporting. However, we
noted certain matters involving the internal control over financial reporting and its operation that we
consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect TDC’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Reportable conditions are described in the Finding and Recommendations section of this report.

A material weakness is a condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level of risk that misstatements in amounts that
would be material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions and, accordingly, would
not necessarily disclose all reportable conditions that are also considered to be material weaknesses.
However, we believe that none of the reportable conditions described in the Finding and
Recommendations section of this report are material weaknesses.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and grant agreement provisions is the responsibility of TDC. As
part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of TDC’s compliance with certain provisions of laws, regulations,
and the contract. However, our objective was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion. The results of our tests disclosed an
instance of noncompliance that is required to be reported under Government Auditing Standards and
which is described in the Finding and Recommendations section of this report.

This report is intended solely for the information and use of TDC and ETA, and is not intended to be
and should not be used by anyone other than these specified parties.



John J. Getek
Assistant Inspector General
  for Audit

January 12, 2001



                                                    -6-
                 FINDING AND RECOMMENDATIONS


Overall, expenses claimed by TDC were reasonable, allocable and allowable. For the audit period,
TDC claimed expenses of $6,609,054 of which we question $67,192 or 1 percent.

                          Excess Fringe Benefits Charged              $61,363
                          Applicable G&A at 9.5 percent                 5,829
                                 Total Questioned                     $67,192


                                 Excess fringe benefits of $61,363 were allocated to PJCC. TDC
   Excess Fringe Benefit         did not have controls in place to reconcile estimated fringe benefits to
        Allocations              actual costs and detect errors, such as including accrued vacation
                                 which is not chargeable to Job Corps. We calculated fringe benefits
                                 using total fringe benefits and salaries for the audit period, and
questioned $61,363 of fringe benefits.

OMB’s Circular No. A-122, Costs Principles for Nonprofit Organizations, Attachment A, Section A,
Part 2, states to be allowable, costs must be accorded consistent treatment and be adequately
documented. Part 4 states that a cost is allocable to a particular cost objective in accordance with the
relative benefit received.

TDC’s policy is to allocate fringe benefits monthly based on payroll distributions. TDC used different
allocations methods to allocate actual fringe benefits by payroll distributions. In its response, TDC
noted that it allocated fringe benefit costs to Job Corps and other programs by applying either a
predetermined fixed percentage or the actual fringe benefit rate to salaries.

However, TDC did not have controls in place to reconcile estimated fringe benefits to actual costs and
detect errors. We examined the fringe benefit allocations for May and June 1999, and found the
following:

        <       In May, TDC allocated fringe benefits using a predetermined fixed rate (25 percent for
                Job Corps and 28 percent for non-Job Corps programs and activities) which was set
                by the finance department based on an estimate of what the rate would be. The
                resulting allocations exceeded actual costs by $80,774 for the month.

        <       In June, TDC allocated fringe benefits using the same rate (26 percent) for Job Corps
                as for non-Job Corps programs and activities. TDC did not exclude accrued vacation

                                                   -7-
                of $19,059 in determining the Job Corps rate and, as a result, inappropriately allocated
                accrued vacation to PJCC. PRH, Chapter 9, Appendix 901, Section D-5, requires:
                “Earned but unpaid leave will not be accrued, reported as expense nor
                vouchered.”

As a result, Job Corps was charged more than its fair share of fringe benefit costs while other
governmental programs were charged less than their fair share and TDC’s non-governmental activities
ended up having a negative fringe benefit charge. For the audit period, we calculated fringe benefits for
the audit period using actual total fringe benefits and salaries for the year. We determined PJCC was
overcharged $61,363 in fringe benefits and $5,829 in applicable G&A, as shown below.


             ETA 2110                 Salaries               Fringe Benefits for Period
        Personnel Expense            Reported
             Categories              for Period       Reported         Per Audit        Difference
      01 Education                     $288,727           $72,866         $66,953           $5,913
      03 Vocational                     539,658           135,927         124,874           11,053
      05 Social Skills                  908,084           227,929         209,330           18,599
      09 Support Service                239,462            60,251          55,347            4,904
      11 Medical / Dental               163,485            40,965          37,617            3,348
      15 Administration                 536,184           138,417         127,435           10,982
      18 Facility Maintenance           148,113            37,579          34,545            3,034
      20 Security                       172,342            43,252          39,722            3,530
      Totals                         $2,996,055          $757,186        $695,823          $61,363
      Applicable G&A at 9.5 percent                                                         $5,829
      Total Questioned Costs                                                               $67,192


                                   We recommend that the Assistant Secretary for Employment and
     Recommendations               Training recover the $67,192 of questioned costs and ensure that
                                   TDC establishes controls to:

        <       provide for the consistent application of allocation methodology, and

        <       monitor allocation control accounts to reconcile estimated fringe benefits to actual costs
                and detect allocation errors.




                                                   -8-
TDC Response:

     Having discussed the matter with your staff at length during their fieldwork, we agree
     with the finding of questioned cost, which states that Job Corps contracts were charged
     an incorrect amount of allocated fringe benefits. We would point out that the costs in
     question were not found to be unallowable with respect to public contract, but that it was
     found that errors in our allocation methodology caused Job Corps contracts to be
     assigned too great a share of fringe benefit costs while other government contracts and
     non-contract activities were correspondingly under-charged. . . .

     The Penobscot contract ended on September 30, 2000 and is due to be closed out at the
     end of March, 2001. We propose to settle the obligation to the Government for the
     Penobscot contract as part of the closeout process, by reducing the costs we report for
     the contract and refunding and difference between our total adjusted costs and our total
     vouchered costs.




                                            -10-
                                                                                                       EXHIBIT
                                      Penobscot Job Corps Center
                               Consolidated Schedule of Center Expenses
                              Reported, Questioned, and Other Adjustments
                                      July 1, 1998 to June 30, 1999


               ETA 2110 Report                    Reported          Amount             Other             Totals
              Expense Categories                  Expenses         Questioned        Adjustments        Per Audit
    1   Education Personnel                         $361,593            $5,913                 $0         $355,680
    2   Other Education                                51,053                0                  0 1          51,053
    3   Vocational Personnel                          675,585           11,053             (1,059)          665,591
    4   Other Vocational                               89,605                0                  0 1          89,605
    5   Social Skills Personnel                     1,136,013           18,599             (9,554)        1,126,968
    6   Other Social Skills                            93,567                0                  0            93,567
    7   Food                                          364,618                0                  0           364,618
    8   Clothing                                      131,840                0                  0           131,840
    9   Support Service Personnel                     299,713            4,904                  0           294,809
   10   Other Support Services                         68,750                0                  0            68,750
   11   Medical/Dental Personnel                      330,354            3,348                  0           327,006
   12   Other Medical/Dental                          111,487                0                  0           111,487
                                                                                                   1
   15   Administrative Personnel                      674,601           10,982            10,613            653,006
   16   Other Administration                          135,378                0                  0           135,378
   17   Indirect Administration (G&A)                 532,942            5,829                  0           527,113
   18   Facility Maintenance Personnel                185,692            3,034                  0           182,658
   19   Other Facility Maintenance                    143,779                0                  0           143,779
   20   Security Personnel                            230,594            3,530                  0           227,064
   21   Other Security                                  5,985                0                  0             5,985
   22   Communications                                 57,344                0                  0            57,344
   23   Utilities and Fuel                            284,420                0                  0           284,420
   25   Insurance                                      24,350                0                  0            24,350
   26   Motor Vehicle                                  35,282                0                  0            35,282
   27   Travel and Training                           118,335                0                  0           118,335
   28   Contractor’s Fee                              215,412                0                  0           215,412
          Net Center Operations                  $6,358,292          $67,192                  $0       $6,291,100
   32   Construction/Rehabilitation                   $90,823                0                  0            90,823
   33   Equipment/Furniture                            55,648                0                  0            55,648
   34   GSA Vehicles Rental                            42,402                0                  0            42,402
   35   VST                                            61,889                0                  0            61,889
          Total Center Expenses                  $6,609,054          $67,192                  $0       $6,541,862


( ) denotes increases in reported costs



Note 1: PJCC staff identified $1,059 of Vocational Personnel expenses and $9,554 of Social Skills Personnel expenses
        which were misclassified as Administration Personnel expenses. Adjustments were made by PJCC as of
        December 13, 2000.


                                                       -11-
                                               APPENDIX
Auditee’s Response to the Draft Audit Report




                   -13-
-14-
